Appendix A-1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
_____________________________________________
SECURITIES AND EXCHANGE COMMISSION,
Applicant,
-v.JAMES DAVID O’BRIEN,
Respondent.
19 Misc. 468 (KPF)
_____________________________________________
ORDER
KATHERINE POLK FAILLA, District Judge:
The
Securities
and
Exchange
Commission
(the
“Commission”) brings this application for an order requiring
Respondent James David O’Brien to comply with the
Commission’s testimony subpoena. The Commission argues
that it has the statutory authority to compel O’Brien to
testify under oath as a part of the Commission’s
investigation. O’Brien, for his part, contends that the
Commission’s subpoena was issued in bad faith and for an
improper purpose. For the reasons set forth in the remainder
of this Opinion, the Commission’s application is granted.
A.

BACKGROUND 1
Factual Background

1 The facts set forth in this Opinion are drawn principally from the
Memorandum of Law in Support of Securities and Exchange Commission’s
Application for an Order to Show Cause and for an Order Requiring
Compliance with Subpoena (“Comm’n Br.” (Dkt. #2)); the exhibits to the
Declaration of Bennett Ellenbogen (“Ellenbogen Decl., Ex. [ ]” (Dkt. #3));
and Respondent’s Memorandum of Law in Opposition to the Securities and
Exchange Commission’s Application for an Order to Show Cause and an
Order Requiring Compliance with Subpoena (“O’Brien Opp.” (Dkt. #12)).

Appendix A-2

On May 8, 2018, the Commission issued an investigative
subpoena to O’Brien for documents and testimony as part of
its investigation into potential market manipulation of
American River Bankshares securities. (Comm’n Br. 3).
Following the issuance of the subpoena, and at least in part
because of the existence of a parallel criminal investigation,
the Commission entered into a proffer agreement with
O’Brien and conducted a joint proffer session with federal
prosecutors on August 21, 2018. (Id. at 3-5; O’Brien Opp. 12). The Commission’s proffer agreement provided that its
staff would not use any statements provided by O’Brien
during the August 21 meeting except, inter alia, “[t]o obtain
other evidence, which may be used against [O’Brien] and
others.” (Ellenbogen Decl., Ex. 3). The proffer agreement
also stated that there were “no other promises or
understandings applicable to the [August 21] Meeting.”
(Id.).
Following the proffer session, the Commission
continued its investigation into American River
Bankshares, including requesting further documentation
from O’Brien. (Comm’n Br. 5; O’Brien Opp. 2). By May
2019, the Commission realized that it wished to question
O’Brien once more, and issued a second subpoena to
O’Brien for that purpose. (Comm’n Br. 5-6). After several
anodyne communications regarding scheduling, O’Brien’s
counsel asked the Commission if O’Brien’s testimony
would be covered by the prior proffer agreement, and the
Commission responded that the testimony would not be so
covered. (Id. at 6-7). In response, O’Brien’s counsel
advised the Commission that his client would not appear
for his scheduled testimony, arguing that the Commission
had acted in bad faith by engaging in the August 21, 2018
proffer session but then refusing to allow O’Brien to testify
in 2019 pursuant to the proffer agreement. (Id. at 7-8). On
July 23, 2019, O’Brien failed to appear for his scheduled
testimony with the Commission. (Id. at 9).

Appendix A-3

B.

Procedural History

On October 18, 2019, the Commission filed an
application for an order to show cause why O’Brien should
not comply with the Commission’s subpoena, as well as an
application to enforce the subpoena. (Dkt. #1). The
Commission also filed a supporting memorandum and
declaration at that time. (Dkt. #2-3). On that same day, the
Court issued an Order directing O’Brien to show cause why
he should not be required to appear for testimony before the
Commission and scheduled a hearing before the Court on
the question. (Dkt. #5). On November 6, 2019, O’Brien filed
briefing in opposition to the Commission’s application,
along with a supporting declaration (Dkt. #12-13), and on
November 18, 2019, the Commission filed a reply (Dkt. #14).
The parties appeared before the Court on November
22, 2019, for a hearing on whether the subpoena should be
enforced. (Minute Entry of November 22, 2019). After
vigorous oral argument from both sides, the Court
requested additional briefing from the Commission. (Id.).
The Commission provided such supplemental briefing on
December 6, 2019 (Dkt. #17), and O’Brien filed a response
on December 9, 2019 (Dkt. #18).
DISCUSSION
A.

The Court Will Enforce the Commission’s
Subpoena
1.

The Relevant Standard

In order for the Commission to have this Court enforce
its subpoena, it “must show [i] that the investigation will be
conducted pursuant to a legitimate purpose, [ii] that the
inquiry may be relevant to the purpose, [iii] that the
information sought is not already within the Commission’s

Appendix A-4

possession, and [iv] that the administrative steps required
have been followed.” SEC v. Finazzo, 535 F. Supp. 2d 224,
226 (S.D.N.Y. 2008) (internal ellipses omitted) (quoting RNR
Enters., Inc. v. SEC, 122 F.3d 93, 96 (2d Cir. 1997)). O’Brien
does not contest any of the latter three prongs of the test; his
only argument is that the investigation is being conducted
in bad faith. In particular, O’Brien argues that the
Commission is acting in bad faith — and indeed, seeks to
violate its own proffer agreement — by seeking to compel
O’Brien to testify about subject matter that he already
discussed within the protective sphere of the August 21
proffer session and its corresponding agreement. (See
O’Brien Opp. 7-10).
Therefore, the only question for the Court to answer is
whether the Commission acts in bad faith by seeking to
compel testimony about subject matter already discussed
under the auspices of a proffer agreement.
2.

The August 21 Proffer Agreement Only
Grants O’Brien “Use” Immunity

A relevant initial question is whether the August
21 proffer agreement provided for “use” immunity or
“derivative use” immunity, since that will determine the
extent to which the Commission may rely on O’Brien’s
statements from his 2018 proffer session. Use immunity
precludes the Government from being able to use an
interviewee’s statements directly against himself in a
prosecution, but permits the Government to “use
information derived from the statements.” See United
States v. Plummer, 941 F.2d 799, 803 (9th Cir. 1991).
Derivative use immunity, on the other hand, requires the
Government “to have derived all the information on
which the subsequent prosecution was based from a
source wholly independent of the statements made in the
interview.” See id. In interpreting proffer agreements

Appendix A-5

such as the one entered into between the Commission
and O’Brien, the Court relies on principles of contract
law. See United States v. Liranzo, 944 F.2d 73, 77 (2d
Cir. 1991). “Where the language of a contract is
unambiguous, the parties’ intent is discerned from the
four corners of the contract.” Id. (citing Nicholas Labs.
Ltd. v. Almay, Inc., 900 F.2d 19, 21 (2d Cir. 1990) (per
curiam)); see generally United States v. Barrow, 400 F.3d
109, 117 (2d Cir. 2005).
Here, the August 21 proffer agreement clearly
provided only for use immunity. There is no ambiguity in
the language — the agreement states that “any
statements made by [O’Brien] during the Meeting” may be
used “[t]o obtain other evidence, which may be used
against [O’Brien] or others.” (Ellenbogen Decl., Ex. 3).
Given the clarity of the agreement’s language, it is plain
that the parties intended for the proffer agreement to
provide use immunity, and nothing more. Indeed, O’Brien
concedes as much in his briefing. (See O’Brien Opp. 15
(noting that the Commission could use the proffer session
“as a source of leads to discover additional evidence”)).
Thus, while the plain language of the proffer agreement
precludes the Commission from directly weaponizing
O’Brien’s prior statements against him, it does not prevent
the Commission from either using those prior statements
to develop new evidence or retreading the ground it
explored in the August 21 proffer session.
3.

There Is No Bad Faith in Repeating
Questions from the Proffer Session

O’Brien’s bad faith argument, at its core, is that the
Commission is trying to have its cake and eat it too.
According to O’Brien, the Commission has accepted the
benefits of its proffer agreement — open testimony from
O’Brien and the production of numerous documents — but

Appendix A-6

does not wish to accept the burden — “that the person
offering the proffer has a legitimate expectation that they
will not be prosecuted based on the information provided in
the proffer session.” (See O’Brien Opp. 8-9). Put another
way, O’Brien’s theory is that the Commission has used the
proffer session as a fishing expedition, in which the
Commission lures the unsuspecting interviewee into
divulging incriminating information under a false promise
of immunity, only to then compel him to repeat the
incriminating information at a later date without the
protection of any such immunity.
If this were an accurate representation of the
Commission’s conduct, the Court might be inclined to agree
with O’Brien that this is bad faith behavior. However, the
Commission is not guilty of such malicious action. This is
made clear by Pillsbury Co. v. Conboy, 459 U.S. 248 (1983).
Although the Supreme Court’s holding in Pillsbury focuses
on whether a deponent’s civil deposition testimony, closely
tracking or repeating verbatim prior immunized testimony,
also qualifies as immunized testimony, see 459 U.S. at 26364, the case is relevant because it makes clear that while
the Commission can compel O’Brien to testify, it cannot
compel him to answer any specific questions. Because the
proffer agreement does not, by its language, apply to
questions about previously discussed subject matter,
O’Brien is free to assert his Fifth Amendment right against
self-incrimination during his testimony before the
Commission. See id. at 256-57 (finding that the deponent
could not be compelled to answer deposition questions
closely tracking prior immunized testimony where the
deponent has asserted his Fifth Amendment right and
there is no “duly authorized assurance of immunity at the
time”). And O’Brien is just as protected by his ability to
assert his Fifth Amendment right as he would be if he were
still covered by the Commission’s offer of immunity. Cf.
Kastigar v. United States, 406 U.S. 441, 462 (1972) (holding
that “the immunity provided by 18 U.S.C. § 6002” — an

Appendix A-7

immunity comparable to that offered by the Commission
— “leaves the witness … in substantially the same position
as if the witness had claimed the Fifth Amendment
privilege”).
Indeed, were the Court to find otherwise, it would in
fact be O’Brien who would unfairly receive all the benefits
and none of the burdens of the proffer agreement. O’Brien’s
interpretation of the law would mean that a prospective
defendant, once questioned under a proffer agreement about
a particular set of facts, could never be prosecuted or sued
on those facts. See Pillsbury, 459 U.S. at 260 (noting that if
a prior immunity order was interpreted to extend to
subsequent testimony closely tracking immunized
testimony, it would “in effect invest the deponent with
transactional immunity on matters about which he testified
at the immunized proceedings”). Such an interpretation
would significantly devalue the utility of proffer agreements,
as well as stretch the agreement far beyond what the parties
originally intended when they contracted. The Court finds
that the proffer agreement does not preclude, and thus that
there is no bad faith in, the Commission asking O’Brien the
same questions as he was previously asked on August 21,
2018, or asking O’Brien about the same subject matter. Cf.
Northern v. Stewart, 32 F. App’x 800, 801- 02 (9th Cir. 2002)
(unpublished decision) (finding, in a case where Northern
sought to question his co-defendant about subject matter
that the co- defendant had previously testified about with
the benefit of use immunity, that Northern “was free to ask
the same questions and cover the same material”).
Finally, insofar as O’Brien seeks relief on the
grounds that the Commission engages in a widespread
practice of issuing bad faith subpoenas subsequent to
proffer sessions, O’Brien’s argument fails for the reasons
already provided above. Assuming the Commission’s
behavior in this case is representative of its behavior in
general regarding proffer arguments, the Court cannot find

Appendix A-8

any fault in the Commission’s practices. O’Brien has failed
to show any way in which the Commission has acted in bad
faith, and thus he must comply with the Commission’s
subpoena.
CONCLUSION
For the reasons set forth in this Opinion, the
Commission’s motion to compel O’Brien’s testimony is
GRANTED. O’Brien is ORDERED to appear for
testimony at the Commission’s offices in the New York
Regional Office in response to the subpoena at a mutually
convenient time on or before January 31, 2020. In the
event that O’Brien does not appear for his testimony by
the date specified above, the Commission will have
established a prima facie case of civil contempt against
O’Brien and O’Brien may be held in civil contempt for
failure to comply with this Court’s Order without further
notice or hearing.
The Clerk of Court is directed to close this matter.
SO ORDERED.
Dated:

December 27, 2019
New York, New York

KATHERINE POLK FAILLA
United States District Judge

Appendix B-1
20-37
United States Securities and Exchange Commission v.
O'Brien
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT.
CITATION TO A
SUMMARY
ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT'S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL
APPENDIX OR AN ELECTRONIC DATABASE (WITH
THE NOTATION "SUMMARY ORDER"). A
PARTY CITING A SUMMARY ORDER MUST SERVE
A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court
of Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 11th day of January, two
thousand twenty-one.

PRESENT: GUIDO CALABRESI, REENA RAGGI, DENNY
CHIN,
Circuit Judges.
- -- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - --x

Appendix B-2
UNITED STATES SECURITIES
AND EXCHANGE COMMISSION,
Plaintiff-Appellee,
-vJAMES DAVID O'BRIEN,
Defendant-Appellant.
--------------------------------------x
FOR PLAINTIFF-APPELLEE: ERIC A. REICHER, Special
Trial Counsel (Melinda Hardy, Assistant General Counsel,
on the brief), Securities and Exchange Commission,
Washington, D.C.
FOR DEFENDANT-APPELLANT: JOHN M.
HANAMIRIAN, Hanamirian Law Firm, P.C., Moorestown,
New Jersey.
Appeal from the United States District Court for the
Southern District of New York (Katherine Polk Failla, J.).
UPON CONSIDERATION WHEREOF, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
order of the district court is AFFIRMED.
Defendant-appellant James David O'Brien appeals the
district court's order entered December 27, 2019, granting
the motion of plaintiff-appellee the Securities and Exchange
Commission (the "Commission") to enforce a 2019 subpoena.
O'Brien argues that he need not comply with the subpoena
because it was issued in breach of a proffer agreement
entered into between him and the Commission in August
2018. We assume the parties' familiarity with the
underlying facts, procedural history of the case, and issues
on appeal.
On May 8, 2018, the Commission issued a subpoena
to O'Brien requiring him to provide documents and
testimony regarding a market-manipulation investigation.

Appendix B-3
On July 12, 2018, the Commission sent O'Brien a proffer
agreement, which O'Brien signed on August 21, 2018 (the
"Proffer Agreement"). The Proffer Agreement provided the
following "terms of the August 21, 2018 meeting between
[O'Brien] and the . . . Commission":
(2) This Agreement only covers
statements provided by you during
the Meeting. It does not cover
statements
provided,
including
statements made, at any other time,
regardless of format (e.g., oral,
written, or recorded).
A. The Commission's staff
will not use any statements
provided by you during the
Meeting, except for the
following purposes:
1. To obtain other
evidence, which may
be used against you
and others;
....
(6) You agree that there are no
other
promises
or
understandings applicable to the
Meeting, and that none will be
entered into unless in writing
and signed by the parties to this
Agreement.
J. App'x at 78-79.
On May 15, 2019, the Commission issued a second
subpoena to O'Brien (the "2019 subpoena"). O'Brien did not
appear to testify pursuant to the 2019 subpoena.

Appendix B-4
On October 18, 2019, the Commission filed an
application for an order to show cause and for an order
compelling O'Brien to comply with the 2019 subpoena.
The district court issued an order to show cause that
same day. After receiving two rounds of briefing and
holding a hearing, the district court ordered O'Brien to
comply with the subpoena. The district court concluded
that the Proffer Agreement did not preclude the
Commission from taking O'Brien's testimony pursuant to
the 2019 subpoena, and it found that the Commission had
not acted in bad faith. This appeal followed.
We review a district court's decision to enforce or quash
a subpoena for abuse of discretion. McLane Co. v. E.E.O.C.,
137 S. Ct. 1159, 1167 (2017), as revised (Apr. 3, 2017);
E.E.O.C. v. United Parcel Serv., Inc., 587 F.3d 136, 140 (2d
Cir. 2009) (Newman, J., concurring); Ratliff v. Davis Polk &
Wardwell, 354 F.3d 165, 168 (2d Cir. 2003). "[O]ur review of
the district court's determination that the government did not
breach the Proffer Agreement is de novo." United States v.
Liranzo, 944 F.2d 73, 77 (2d Cir. 1991).
We agree with the district court that the testimony the
Commission sought in the 2019 subpoena was not precluded
by the Proffer Agreement. "[P]roffer agreements[ ] are
interpreted according to principles of contract law," and
"[w]here the language of a contract is unambiguous," our
review is based on "the four corners of the contract." Id. The
Proffer Agreement provided, among other things, that (1) it
"only cover[ed] statements provided by [O'Brien] during the
Meeting" and "[did] not cover statements provided, including
statements made, at any other time, regardless of format
(e.g., oral, written, or recorded)," and (2) statements made
during the proffer session could be used "[t]o obtain other
evidence, which may be used against [O'Brien]." J. App'x at
78. Accordingly, the Proffer Agreement was unambiguous --

Appendix B-5
it immunized O'Brien only for statements made at the
proffer session, and there was nothing in it that prevented
the Commission from subpoenaing O'Brien again to testify.
O'Brien argues that we should disregard the plain
language of the Proffer Agreement because he understood it
to cover all future testimony regarding the same set of facts,
and that otherwise he never would have signed it. We reject
this argument.
First, the Proffer Agreement has an integration
clause, which provided that "there [we]re no other promises
or understandings applicable to the Meeting, and that none
will be entered into unless in writing and signed by the
parties to this Agreement." J. App'x at 79. Second, O'Brien's
allegation that the Commission breached his implicit
understanding of the Proffer Agreement is insufficient to
demonstrate that the
Government breached the
unambiguous contract. See United States v. Altro (In re
Altro), 180 F.3d 372, 376 (2d Cir. 1999) (in plea agreement
context, "a defendant may not rely on a purported implicit
understanding in order to demonstrate that the Government
is in breach").
O'Brien also argues that the Commission acted in bad
faith and thus breached the Proffer Agreement. Specifically,
he states that he
does not dispute the authority of
the Commission to issue a
subpoena, but rather, asserts
that the issuance of the May
2019 Subpoena in the context of
the existence of the May 2018
Subpoena and the Proffer
Agreement, stemming from the
issuance of the May 2018

Appendix B-6
Subpoena, was an act of bad
faith breach of the Proffer
Agreement.
Appellant's Reply Br. at 10-11. In other words,
O'Brien is not disputing that the Commission had the
authority to issue the 2019 subpoena, but instead he is
asserting that the Commission's issuance of the 2019
subpoena breached the Proffer Agreement. But because the
Proffer Agreement did not apply to the 2019 subpoena, this
argument does not help O'Brien. Even assuming that by
issuing the 2019 subpoena the Commission breached the
Proffer Agreement, O'Brien has not argued that there is any
basis to find that the proper remedy for that breach would
be the quashing of the subsequent, undisputedly lawful
2019 subpoena. Accordingly, we are not persuaded that
even if the Commission breached the Proffer Agreement by
acting in bad faith, it would shield O'Brien from testifying
pursuant to the 2019 subpoena.
We have considered O'Brien's remaining arguments
and conclude they are without merit. Accordingly, we
AFFIRM the order of the district court.
FOR THE COURT:
Catherine O'Hagan
Wolfe, Clerk

Appendix C-1
UNITED STATES
SECURITIES AND EXCHANGE COMMISSION NEW
YORK REGIONAL OFFICE 200 VESEY STREET,
SUITE 400
NEW YORK, NY 10281-1022
DIVISION OF ENFORCEMENT
Bennett Ellenbogen Senior Counsel
(212) 336-0062
ellenbogenB@sec.gov
DIVISION OF ENFORCEMENT
May 8, 2018
BY UPS & ELECTRONIC MAIL
Mr. James O'Brien
c/o John Han ami rian, Esq .
Hanami1ian Law Finn
40 Main Street Moorestown, NJ 08057
Re:
American River Bankshares (NY-09615)
Dear Mr. O'Brien :
The staff of the Securities and Exchange Commission is
conducting an investigation in the matter identified above.
The enclosed subpoena has been issued to Mr. James
O'Brien as part of this investigation. The subpoena
requires you to give us documents and provide sworn
testimony. The staff further requests that you voluntarily
complete the attached background questionnaire in
advance of your testimony.
Please read the subpoena and this letter carefully. This
letter answers some questions you may have about the

Appendix C-2
subpoena. You should also read the enclosed SEC Form
1662. You must comply wi th the subpoena. You may be
subject to a fine and/or imprisonment if you do not.
Producing Documents
What materials do 1 have to produce?
The subpoena requires you to give us the docum ents
described in the attachment to the subpoena . You must
provide these docum ents by May 22, 2018. The
attachment to the subpoena defin es some term s (such as
"document") before listi ng what you must provide.
Please note that if copies of a document differ in any way,
they are considered separate docum ents and you must send
each one. For example, if you have two copies of the same
letter, but only one of them has hand written notes on it,
you must send both the clean copy and the one with notes.
If you prefer, you m ay send us photocopies of the
ori ginals. The Commission cannot reimburse you for the
copying costs. The copies must be identical to the
originals, including even faint marks or p1int. I f you
choose t o send copies, you must keep the original s in a
safe pl ace. The staff will accept the copies for now, but m
ay require you to produce the originals later.
Subpoena issued to Mr. James O'Brien May 8, 2018
Page 2
If you do send us photocopies, please put an identifying
notation on each page of each document to indicate that it
was produced by you, and number the pages of all the
documents submitted. (For example, if Jane Doe sends
documents to the staff, she may number the pages JD- 1,
JD-2, JD-3, etc., in a blank comer of the documents.) Please
make sure the notation and number do not conceal any

Appendix C-3
writing or marking on the document.
If you send us
originals, please do not add any identifying notations.
Copies of documents and information provided in electronic
formats must comply with the technical requirements set
out in the attached copy of the SEC's Data Delivery
Standards. You should contact me prior to production in an
electronic format other than those identified in the Data
Delivery Standards.
Do I need to send anything else?
You should enclose a list briefly describing each item you
send. The list should state which paragraph(s) in the
subpoena attachment each item responds to. A copy of the
subpoena should be included with the documents that
are produced.
Passwords for documents, files, compressed archives, and
encrypted media should be provided separately either via
email addressed to ENF-CPU@sec.gov, or in a separate
cover letter mailed separately from the data.
Please include a cover letter stating whether you believe
you have met your obligations under the subpoena by
searching carefully and thoroughly for everything called for
by the subpoena, and sending it all to us.
What if I do not send everything described in the attachment
to the subpoena?
The subpoena requires you to send all the materials
described in it. If, for any reason -­ including a claim of
attorney-client privilege -- you do not produce something
called for by the subpoena, you should submit a list of what
you are not producing. The list should describe each item
separately, noting:
its author(s); its date; its subject matter; the name of the
person who has the item now, or the last person known to
have it; the names of everyone who ever had the item or a

Appendix C-4
copy of it, and the names of everyone who was told the item's
contents; and the reason you did not produce the item.
If you withhold anything on the basis of a claim of attorneyclient privilege or attorney work product protection, you
should also identify the attorney and client involved.
Subpoena issued to Mr. James O'Brien May 8, 2018
Page 3
Where should I send the materials?
Please send the materials to:
ENF-CPU
United States Securities and Exchange Commission
100 F St., N .E., Mailstop 5973 Washington, DC 20549-5973
For smaller electronic productions that are less than 10 MB
in size, the materials may be emailed to the following email
address: ENF-CPU@sec.gov.
Testifying
Where and when do I testify?
The subpoena requires you to come to the Commission's
offices at 200 Vesey Street, Suite 400, New York, NY I
0281, on May 24, 2018 at 10:00 a.m., to testify under oath
in the matter identified on the subpoena. Your testimony
will be recorded by stenographic means.
Other Important Information
May I have a lawyer help me respond to the subpoena?
Yes. You have the right to consult with and be represented
by your own lawyer in this matter. Your lawyer may also
advise and accompany you when you testify. We cannot
give you legal advice.
What will the Commission do with the materials I send
and/or the testimony I provide?

Appendix C-5
The enclosed SEC Form 1662 includes a List of Routine
Uses of information provided to the Commission. This form
has other important information for you. Please read it
carefully.
Has the Commission determined that anyone has done
anything wrong?
This investigation is a non-public, fact-finding inquiry. We
are trying to determine whether there have been any
violations of the federal securities laws. The investigation
and the subpoena do not mean that we have concluded that
you or anyone else has broken the law.
Also, the
investigation does not mean that we have a negative
opinion of any person, entity or security.
Important Policy Concerning Settlements
Please note that, in any matter in which enforcement action
is ultimately deemed to be warranted, the Division of
Enforcement will not recommend any settlement to the
Commission unless the party wishing to settle certifies,
under penalty of perjury, that all documents responsive to
Commission subpoenas and formal and informal document
requests in this matter have been produced.
Subpoena issued to Mr. James O'Brien May 8, 20 18
Page 4
I have read this letter. the subpoena, and the SEC Form
1662, but I still have questions. What should I do?
If you have any other questions, you may call me at (212)
336-1014. lf you are represented by a lawyer; you should
have your lawyer contact me.
Sincerely,
Counsel
Enclosures:
Subpoena
Attachment to Subpoena SEC Form 1662

Appendix C-6
SEC
Data
Questionnaire

Delivery

Standards

Background

Appendix C-7
UNITED STATES OF AMERICA
SECURITIES AN D EXCHANGE COMMISSION
In the Matter of American River Bankshares (NY09615)
To:
Mr. James O'Brien
c/o John Hanami1ian, Esq. Hanamirian Law Firm
40 Main Street Moorestown, NJ 08057
YOU MUST PRODUCE everything specified in the
Attachment to thi s subpoena to officers of the Securiti es
and Exchange Commission, at the place, date, and time
specified below.
ENF-CPU, United States Securities and Exchange
Commission, F St., N.E., Mailstop 5973, Washington ,
DC 20549-5973, or ENF-CPU@sec.gov, May 22, 2018, at
9:00 a.m.
YOU MUST TESTIFY before officers of the Securities and
Exchange Commission, at the place, date, and time
specified below.
200 Vesey Street, Suite 400, New York, NY 10281, May
24, 2018, at 10:00 a.m.
FEDERAL LAW REQUIRES YOU TO COMPLY WITH
THIS SUBPOENA.
Fail ure to comply may subject you to a fine and/or
imprisonment.
Date:

May 8, 2018

Appendix C-8
I am an officer of the Securities and Exchange Commission
authorized to issue subpoenas in this matter. The
Securi ties and Exchange Commission has issued a formal
order authorizing this investigation under Section 20(a) of
the Securities Act of 1933 and Section 2 1 (a) of the
Securities Exchange Act.
NOTICE TO WITN ESS: If you claim a witness fee or
mileage, submit this subpoena with the claim voucher.
ATTACHMENT TO SUBPOENA ISSUED TO
Mr. James O'Brien
IN THE MATTER OF (NY-09615)
May 8, 20 18
A.

DEFIN ITIONS

I.
"You " or "O'Brien" means James O'Brien , as well
as any en tity over whi ch O'B1ien exercises control and/or
in which he has an ownership interest.
"Document" includes any written, printed, or typed matter
including, but not limited to agreements and
amendments thereto, letters and correspondence,
electronic mail , instant messages, text messages,
interoffice communications, slips, tickets, records,
worksheets, financial records, accounting documents,
bookkeeping documents, memoranda, reports, manuals,
telephone logs, telegrams, facsimiles, messages of any
type, telephone messages, voice mails, tape recordings,
notices, instructions, minutes, summaries, notes of
meetings, purchase orders, information recorded by
photographic process, including microfilm and

Appendix C-9
microfiche, computer printouts, computer fi les,
spreadsheets , websites, information posted on social
networking sites, or other electronically stored
information stored i n any medium from which
information can be retrieved , obtained, manipulated, or
translated (including computer hard drives, servers,
compact d iscs or other removab l e media, archi ves, and
backup tapes).
“Communication " m eans and i nclud es, wit h ou t
limitation, any and a l l written, oral, telephonic,
electronic, or other utterances of any nature
whatsoever, shared, shown, transferred between or
among any two or more persons or entities, including, but
not limited to, correspondence, memoranda, notes, e-mail,
instant messages, chat, discussion forums, telephone
conversations, and other conversations, conferences or
meetings,
statements, inquiries, discussions, dialogues,
consultations, negoti a tions, agreements,
understandings, meetings, l etters, notations, telegrams,
ad vertisements, or interviews.
"Agreement" means any actual or contemplated (a)
written or oral covenant; (b) term or provision of such
covenant; or (c) amendment of any nature or term i
nation of such covena nt. A request for any agreement
among or between specified parties includes a request
for all documents concerning (a) any actual or
contemplated agreement among or between such
parties, whether or not such agreement included any
other person; (b) the drafting or negotiation of any such
covenant; (c) any actual or contemplated demand,
request or application for any such agreement, and any

Appendix C-10
response thereto; and (d) any actual or contemplated
objection or refusal to enter into any such agreement, and
any response thereto.
"Payment" means an offer, transfer of anything of value,
promise to pay, or authorization of the payment of any
money, or offer, gift, promise to give, or authorization of
the giving of anything of value to any person, bod y, party,
or entity.
"Brokerage Firms" means any of the following companies
and any of their parents, subsidiaries, affiliates,
predecessors, successors, officers, directors, employees,
agents, partners, and independent contractors, as well as
aliases, code names, trade names, or business names used
by, or formerly used by, any of the foregoing:
Charles Schwab & Co., Inc.
E*Trade Securities LLC
Fidelity Brokerage Services, LLC
Lightspeed Trading, LLC
Bank of America Merrill Lynch (including Merrill Edge)
Scottrade, Inc.
TD Ameritrade, Inc
TradeKing Group, Inc. (including TradeKing Securities)
t.

TradeStation Securities, Inc.

Appendix C-11
Reference to a person shall also include that person's
trusts, affiliates, employees, agents, partners, and
independent contractors, as well as aliases, code names,
trade names, or business names used by, or formerly used
by, any of the foregoing.
Reference to an entity shall also include that entity's
parents, subsidiaries, affiliates, predecessors, successors,
officers, directors, employees, agents, partners, and
independent contractors, as well as aliases, code names,
trade names, or business names used by, or formerly used
by, any of the foregoing.
Documents or communications "relating to," "relate to,"
"regarding," or "concerning" a given subject matter means
any document or communication that constitutes,
contains, embodies, comprises, reflects, identifies, states,
alludes to, refers to, deals with, comments on, responds to,
describes, analyzes, or is in any way pertinent to that
subject, including, but not limited to, documents
concerning the presentation of other documents.
To "identify" a person or entity means to provide that
person's or entity's full legal name, nicknames, residential
address(es), business address( es), nationality, telephone
number(s), e-mail address( es), and state of incorporation,
if applicable.
To the extent necessary to bring within the scope of this
request any information or documents that might
otherwise be construed to be outside its scope:
the word "or" means "and/or";

Appendix C-12
the word "and" means "and/or";
the functional words "each," "every" "any" and "all" shall
each be deemed to include each of the other functional
words;
any gender pronouns used should be read expansively to
include both male and female pronouns;
the singular includes the plural and the plural includes
the singular;
the words "including" and "includes" mean "including,
without limitation"; and
the past tense includes the present tense and vice versa.
"Relevant Period" means from January 1, 2014 to the
present.
INSTRUCTIONS
You must produce all documents and communications
sought in this subpoena that are in your possession or
control, be it actual or constructive, including but not
limited to your documents and communications that are in
the possession of any third-party vendor.
Unless otherwise specified, this subpoena calls for
production of the original documents and all copies and
drafts of same. You may provide original documents or
copies of original documents, at your expense, with the
understanding that the staff has the right to compel

Appendix C-13
production of the original documents at a later date. The
Commission cannot reimburse you for the copying costs.
If you are sending copies, the staff requests that you scan
(rather than photocopy) hard copy documents. All
electronic documents responsive to the document request,
including all metadata, must also be secured and retained
in
their native software format and stored in a safe place.
The staff may later request or require that you produce
the native format. All electronic productions must comply
with the Commission's Data Delivery Standards
(attached).
Whether you scan or photocopy documents, the copies
must be identical to the originals, including even faint
marks or print. Also, please note that if copies of a
document differ in any way, they are considered separate
documents and you must send each one. For example, if
you have two copies of the same letter, but only one of
them has handwritten notes on it, you must send both the
clean copy and the one with notes.
All documents must be produced in the manner in which
they were maintained. For example, if documents are
maintained loose in a file folder, the documents are to be
produced in that same manner and not reorganized and/or
put into a binder. On the other hand, if documents are
maintained in a binder, the documents are to be produced
in the same manner. Produce the entirety of each and
every document described below, without alteration,
deletion or obliteration of any information contained
therein, even though such information is not specifically
requested.

Appendix C-14
If any of the documents called for are not produced, for
whatever reason, submit a list of the documents not
produced and state for each document:
the identity and position of the creator(s); the creation
date; its present or last known custodian; a brief
description, including the subject matter;
the identity and position of all persons or entities known
to have been furnished the document or a copy of the
document, or informed of its substance;
the reason the document is not being produced;
the specific request in Paragraph C to which the
document relates;
in the case of a claim of attorney-client privilege, the
attorney(s) and the client(s) involved; and
in the case of a claim of the work product doctrine, the
litigation for which the document was prepared in
anticipation and the first date that the subject litigation
was anticipated.
Additionally, if the document is no longer in existence,
please state the actual or approximate date it ceased to
exist, the circumstances under which it ceased to exist,
and the identity of all persons having knowledge of the
circumstances under which it ceased to exist or having
knowledge of the contents thereof.
All documents produced must be legible.

Appendix C-15
Documents should be labeled with sequential numbering
(i.e., bates-stamped).
For business records, provide a certification from the
custodian of records or other qualified person that the
documents produced are records of regularly conducted
business activities (see attached exemplars).
REQUIRED DOCUMENTS
Documents sufficient to identify any and all brokerage
accounts (foreign and domestic) in the name of, for the
benefit of, owned (in whole or in part) by or controlled by
you during the Relevant Period. In the alternative, you
may provide a list containing the information requested in
this paragraph.
Documents sufficient to identify any and all bank accounts
(foreign and domestic) in the name of, for the benefit of,
owned (in whole or in part) by or controlled by you during
the Relevant Period. In the alternative, you may provide a
list containing the information requested in this
paragraph.
All documents reflecting any communications-including,
without limitation, emails, instant messages, and text
messages, whether stored on a computer, mobile device,
server or elsewhere-between you and any other person
relating to the Brokerage Firms during the Relevant
Period.
Documents sufficient to identify all email addresses you
used during the Relevant Period. In the alternative, you

Appendix C-16
may provide a list containing the information requested in
this paragraph.
All account statement documents relating to any of your
accounts at the Brokerage Firms.
All records reflecting your telephone calls or text
messages, including, without limitation, telephone bills,
records and invoices during the Relevant Period.
Documents sufficient to show any software, programs,
algorithms or hot keys used in connection with trading
with the Brokerage Firms during the Relevant Period.
U.S. Securities and Exchange Commission
Data Delivery Standards
Rev 10/2014

Appendix D-1
UNITED STATES
SECURITIES AND EXCHANGE COMMISSION
NEW YORK REGIONAL OFFICE
BROOKFIELD PROPERTIES, 200 VESEY ST., ROOM 400
NEW YORK, NEW YORK 10281
July 12, 2018
James O'Brien
c/o John Hanamirian, Esq.
Hanamirian Law Firm
40 Main Street
Moorestown, NJ 08057
Re:

Proffer Agreement
American River Bankshares (TISO), File No. NY-9615

Dear Mr. O'Brien:
This Agreement contains the terms of the August
21, 2018 meeting between you and the staff of the Division
of Enforcement of the United States Securities and
Exchange Commission in the above-referenced matter
("Meeting"). These terms are as follows:
A.
B.

C.

This Meeting is voluntary, and you agree to
provide complete and truthful statements during
the Meeting.
This Agreement only covers statements provided by
you during the Meeting.
It does not cover
statements provided, including statements made,
at any other time, regardless of format (e.g., oral,
written, or recorded).
The Commission's staff will not use any statements
provided by you during the Meeting, except for the
following purposes:

Appendix D-2
1.

D.

To obtain other evidence, which may be used
against you and others;
2.
In any action or proceeding brought or
instituted by the Commission against you, to
rebut your testimony, evidence offered, or
arguments or assertions made by you or on
your behalf (including in response to questions
raised by a judge or jury);
3.
If you are a witness in any other action or
proceeding brought or instituted by the
Commission, to rebut your testimony; and
4.
In any referral to a criminal law enforcement
agency or entity as evidence of false
statements, perjury, or obstruction of justice,
or as the basis for a criminal sentence
adjustment for obstructing or impeding the
administration of justice.
You agree that any statements provided by you
during the Meeting, or evidence obtained as a
result, does not constitute a compromise offer,
compromise negotiations, plea

James O'Brien
July 12, 2018
Page 2 of 2
discussions, or any related statements for
purposes of Federal Rules of Evidence 408 or 410,
and you agree not to assert that such rules apply
to any statements provided by you during the
Meeting, or evidence obtained as a result.
*

You and your counsel agree that you have fully
discussed and understand all terms of this
Agreement and their consequences.

Appendix D-3
*

*

*

You agree that there are no other promises or
understandings applicable to the Meeting, and that
none will be entered into unless in writing and
signed by the parties to this Agreement.
This Agreement does not bind anyone other than
the Commission's staff. Except as provided in
paragraph (3) or unless compelled by law, the
Commission's staff will not disclose statements
provided by you during the Meeting to any other
regulator or law enforcement agency or entity not
present at the Meeting without an agreement to
abide by terms comparable to the terms of this
Agreement as applicable to such other regulator or
law enforcement agency or entity. Nothing in this
Agreement limits the Commission staff s right to
share within the Commission any statements
provided by you during the Meeting.
This Agreement is not limited or affected by any
agreement between you and any other regulator or
law enforcement agency or entity, and vice versa.
Sincerely,

_________________
James O'Brien
__________________
John Hanamirian
Counsel to James O'Brien

Assistant Director

Appendix E-1
UNITED STATES SECURITIES AND EXCHANGE
COMMISSION NEW YORK REGIONAL OFFICE 200
VESEY STREET, SUITE 400 NEW YORK, NY 10281-1022
DIVISION OF ENFORCEMENT Bennett Ellenbogen Senior
Counsel (212) 336-0062 ellenbogenB@sec.gov
May 15, 2019
BY UPS & ELECTRONIC MAIL
Mr. James O’Brien
c/o John Hanamirian, Esq.
Hanamirian Law Firm
40 Main Street
Moorestown, NJ 08057
Re: American River Bankshares(NY-09615)
Dear Mr. O’Brien: The staff of the Securities and Exchange
Commission is conducting an investigation in the matter
identified above. The enclosed subpoena has been issued to
Mr. James O’Brien as part of this investigation. The
subpoena requires you to provide sworn testimony. The staff
further requests that you voluntarily complete the attached
background questionnaire in advance of your testimony.
Please read the subpoena and this letter carefully. This letter
answers some questions you may have about the subpoena.
You should also read the enclosed SEC Form 1662. You must
comply with the subpoena. You may be subject to a fine and/or
imprisonment if you do not.
Testifying Where and when do I testify? The subpoena
requires you to come to the Commission’s offices at 200 Vesey
Street, Suite 400, New York, NY 10281, on June 19, 2019 at
10:00 a.m., to testify under oath in the matter identified on

Appendix E-2
the subpoena. Your
stenographic means.

testimony

will

be

recorded

by

Other Important Information May I have a lawyer help me
respond to the subpoena? Yes. You have the right to consult
with and be represented by your own lawyer in this matter.
Your lawyer may also advise and accompany you when you
testify. We cannot give you legal advice.
Subpoena issued to Mr. James O’Brien May 15, 2019 Page 2
What will the Commission do with the materials I send
and/or the testimony I provide? The enclosed SEC Form 1662
includes a List of Routine Uses of information provided to the
Commission. This form has other important information for
you. Please read it carefully.
Has the Commission determined that anyone has done
anything wrong? This investigation is a non-public, factfinding inquiry. We are trying to determine whether there
have been any violations of the federal securities laws. The
investigation and the subpoena do not mean that we have
concluded that you or anyone else has broken the law. Also,
the investigation does not mean that we have a negative
opinion of any person, entity or security.
Important Policy Concerning Settlements Please note that, in
any matter in which enforcement action is ultimately deemed
to be warranted, the Division of Enforcement will not
recommend any settlement to the Commission unless the
party wishing to settle certifies, under penalty of perjury,
that all documents responsive to Commission subpoenas and
formal and informal document requests in this matter have
been produced.
I have read this letter, the subpoena, and the SEC Form 1662,
but I still have questions. What should I do? If you have any
other questions, you may call me at (212) 336-0062. If you are

Appendix E-3
represented by a lawyer, you should have your lawyer contact
me.
Sincerely,
/S Bennett Ellenbogen
Counsel
Enclosures: Subpoena SEC Form 1662 Background
Questionnaire

Appendix E-4
UNITED STATES OF
AMERICA
SECURITIES AND
EXCHANGE
COMMISSION
In the Matter of
American River
Bankshares (NY-09615)
To:

Mr. James O’Brien
c/o John Hanamirian, Esq. Hanamirian Law
Firm
40 Main Street
Moorestown, NJ 08057

A.
YOU MUST TESTIFY before officers of the
Securities and Exchange Commission, at the place, date,
and time specified below.
200 Vesey Street, Suite 400, New York, NY 10281,
June 19, at 10:00 a.m.
FEDERAL LAW REQUIRES YOU TO COMPLY
WITH THIS SUBPOENA.
Failure to comply may
subject you to a fine and/or
imprisonment.
By:

/S
Date: May 15, 2019
Bennett Ellenbogen
Senior Counsel

I am an officer of the Securities and Exchange Commission
authorized to issue subpoenas in this matter. The
Securities and Exchange Commission has issued a formal

Appendix E-5
order authorizing this investigation under Section 20(a) of
the Securities Act of 1933 and Section 21(a) of the
Securities Exchange Act.
NOTICE TO WITNESS:
If you claim a witness fee or
mileage, submit this subpoena with the claim voucher.

Appendix E-6
BACKGROUND QUESTIONNAIRE

Please respond to the following questions in the space provided.
If you need additional space for any response, you may attach
additional pieces of paper.
Today’s date:
1. What is your full name?
2. Have you ever been known by any other name? Yes No
If yes, list each such name and the period(s) in which you were
known by that name.
3. Date and Place of Birth?
4. Country of Citizenship?
5. Marital Status? Married Divorced Single
If you have ever been married, state for each marriage: (i) the
date(s) of the marriage;
(ii) the name of your spouse; (iii) your spouse’s birth name, if
different; (iv) your spouse’s age; and (v) your spouse’s occupation.
6. List the names, ages and occupations of your children, if any.
7. List all residences you occupied at any time during the last
[three] years, including vacation homes, beginning with your
current residence. For each residence, state the address, dates
of residence, and all telephone numbers (including facsimile
numbers) listed at that address.
Background Questionnaire Page 2
8. List all telephone numbers and telecommunication services
that were in your name or that you regularly used at any time
during the last [three] years. Include all residential, business,
cellular, credit card, and VOIP telephone numbers, including
those listed in your response to question 7, and services such as
GoogleVoice, Skype, video conference services. For each
telephone number, state the name(s) of the corresponding
carrier(s) (e.g., AT&T, Verizon, Vonage, Skype, etc.).
9. List the universal resource locator (URL) for all websites or
blogs that you established or for which you had the authority to

Appendix E-7
control content, at any time during the last [three] years. For
each website, state the name(s) of the domain name registrar (e.g.
GoDaddy) through which the URL was obtained, the name(s) of
all individuals or entities who provided web site hosting or
design services, whether the website contained primarily
business or personal information, and the time period in which it
was active.
10. List all electronic mail addresses and social networking
accounts (e.g. Facebook, LinkedIn, Twitter, Instagram, Flickr,
and Google+) that were in your name or that you regularly used
at any time during the last [three] years. Include all personal,
business and shared electronic mail addresses and social
networking accounts. For each electronic mail address and
social networking account, state the name(s) of the corresponding
internet service provider(s) (e.g., Google, Yahoo, AOL, or your
employer), whether the address was used primarily for business
or personal correspondence, and the time period in which it was
active.
11. List all usernames for instant messaging and similar
electronic communication services (including, but not limited to,
Bloomberg, Skype, whatsapp), other than those listed in your
response to questions 8 through 10, that were in your name or
that you regularly used at any time during the last [three] years.
Include all personal, business and shared addresses. For each
username, state the name(s) of the communication service
provider (e.g., Google, AOL, etc.), whether the address was used
primarily for business or personal correspondence, the time
period in which it was active, and the name of the software
application(s) (e.g., GTalk, ICQ, MSN Messenger) you used to
access it.
12. List all internet message boards or discussion forums
(including, but not limited to, Money Maker Group, PNQI
Message Board, Investors Hub Daily) of which you were a
member or on which you posted any messages at any time during
the last [three] years. For each message board or discussion

Appendix E-8
forum, state the service provider and your member name or
identification information.

PUBLICLY-HELD COMPANIES
13. Are you now, or have you ever been, an officer or director of
any publicly-held company? Yes
No
If yes, identify each such company, its CUSIP, and any exchange
on which it is or was listed, and state your positions (including
membership on any Board or management committees) and the
dates you held each position.
14. Are you now, or have you ever been, a beneficial owner,
directly or indirectly, of five per cent or more of any class of
equity securities of any publicly held company? Yes No
If yes, identify each such company, its CUSIP, and any exchange
on which it is or was listed, and state the amount, percentage,
and dates of your ownership.
Background Questionnaire Page 4
PRIVATELY-HELD COMPANIES
15.
Are you now, or have you ever been, a beneficial owner,
directly or indirectly, of any privately-held company (i.e.,
corporation, partnership, limited liability company or other
corporate form)? Yes No
If yes, identify each such company, including address and other
contact information, and state your positions and the dates you
held each position.
16.
Are you now, or have you ever been, a manager or a
member of any privately-held company (i.e., corporation,
partnership, limited liability company or other corporate form)?
Yes No

Appendix E-9
If yes, identify each such company, including address and other
contact information, and state your positions and the dates you
held each position.
SECURITIES ACCOUNTS
17. List all securities or brokerage accounts that you have held in
your name, individually or jointly, at any time during the last
[three] years. Include all foreign accounts. For each such
account, identify: (i) the brokerage firm; (ii) the location of the
branch where your account is or was held; (iii) your broker; (iv)
the type of account (i.e., cash, margin or IRA); (v) the account
number; and (vi) whether any person has ever held discretionary
authority or power of attorney over the account; if so, name such
person(s).
Background Questionnaire Page 5
18. List all securities or brokerage accounts (including foreign
accounts), other than those listed in your answer to question 17,
in which you had any direct or indirect beneficial interest at any
time during the last [three] years. For each such account,
provide the information requested by question 17.
19. List all securities or brokerage accounts (including foreign
accounts), other than those listed in your answer to question 17
or 18, over which you had any control at any time during the last
[three] years. For each such account, provide the information
requested by question 17.
BANK ACCOUNTS
20. List all accounts you have held in your name at any financial
institution (i.e., bank, thrift, or credit union) at any time during
the last [three] years. Include all foreign accounts. For each
such account, identify: (i) the financial institution; (ii) the address
of the branch at which your account is or was held; (iii) the type
of account (i.e., checking, savings,money market or IRA); (iv) the
account number; and (v) whether any person has ever had
discretionary authority or power of attorney over the account; if
so, name such person(s).

Appendix E-10
21. List all accounts at financial institutions (including foreign
accounts), other than those listed in your answer to question 20,
in which you had any direct or indirect beneficial interest at any
time during the last [three] years. For each such account,
provide the information requested by question 20.
Background Questionnaire Page 6
22. List all accounts at financial institutions (including foreign
accounts), other than those listed in your answer to question 20
or 21, over which you had any control at any time during the last
[three] years. For each such account, provide the information
requested by question 20.
23. List any other accounts (including foreign accounts), other
than those listed in your answers to questions 20 through 22,
that were held in your name, in which you had any direct or
indirect beneficial interest, or over which you had any control,
that you have used to transfer funds in the last [three] years,
including, but not limited to, PayPal accounts. For each such
account, provide the information requested by question 20.
PRIOR PROCEEDINGS
24. Have you ever testified in any proceeding conducted by the
staff of the Securities and Exchange Commission, a U.S. or
foreign federal or state agency, a U.S. or foreign federal or state
court, a stock exchange, the Financial Industry Regulatory
Authority (“FINRA”) or any other self-regulatory organization
(“SRO”), or in any arbitration proceeding related to securities
transactions? Yes
No
If yes, for each such proceeding, identify: (i) the title of the
proceeding; (ii) the organization or agency; and (iii) the date(s)
on which you testified.
Background Questionnaire Page 7
25. Have you ever been deposed in connection with any court
proceeding? Yes
No

Appendix E-11
If yes, for each such proceeding, identify: (i) the title of the
proceeding, and (ii) the date(s) on which you were deposed.
26. Have you ever been named as a defendant or respondent in
any action or proceeding brought by the SEC, any other U.S. or
foreign federal agency, a state securities agency, FINRA, an
SRO, or any exchange? Yes
No
If yes, for each such proceeding, identify: (i) the title of the
proceeding; (ii) the agency or tribunal; (iii) the substance of the
allegations; (iv) the outcome of the proceeding; and
(v) the date of the outcome.
27. Have you ever been a defendant in any action (other than
those listed in response to question 26) alleging violations of the
federal securities laws? Yes
No
If yes, for each such proceeding, identify: (i) the title of the
proceeding; (ii) the court or tribunal; (iii) the outcome of the
proceeding; and (iv) the date of the outcome.
28. Have you ever been a defendant in any criminal proceeding
other than one involving a minor traffic offense? Yes
No
If yes, for each such proceeding, identify: (i) the title of the
proceeding; (ii) the court or tribunal; (iii) the outcome of the
proceeding; and (iv) the date of the outcome.
Background Questionnaire Page 8
EDUCATIONAL HISTORY
29. Provide the requested information about each educational
institution that you have attended, beginning with the most
recent and working backward to the date that you completed
high school.
Name of School
City
Country

State
Zip Code

Appendix E-12
Dates of Attendance: Month/Year to Month/Year
Degree/Major
Month/Year of Degree
Name of School
City
Country

State
Zip Code

Dates of Attendance: Month/Year to Month/Year
Degree/Major
Month/Year of Degree
Name of School
City
Country

State
Zip Code

Dates of Attendance: Month/Year to Month/Year
Degree/Major
Month/Year of Degree
Name of School
City
Country

State
Zip Code

Dates of Attendance: Month/Year to Month/Year
Degree/Major
Month/Year of Degree
30. Other than courses taken in connection with institutions listed
in response to question 29, list any securities, accounting or
business related courses taken since high school. For each such
course, identify the date that the course was completed and the
name of the institution or organization that offered the course.
Background Questionnaire Page 9
PROFESSIONAL LICENSES/CLUBS
31. Do you hold, or have you ever held, any professional license?
Yes No
If yes, for each such license, identify: (i) the license number or
attorney bar number;

Appendix E-13
(ii) the licensing organization; (iii) the date the license was
awarded; (iv) the date such license terminated, if applicable; (v)
the date(s) of any disciplinary proceeding(s) against you: and (vi)
the outcome of any such disciplinary proceeding (e.g., reprimand,
suspension, revocation).
32. Are you, or have you ever been, a member of any professional or
business club or organization? Yes
No
If yes, list for each: (i) the name of the club or organization; (ii) its
address; (iii) the date(s) of your membership; and (iv) service in
any governance roles (e.g., board member, committee member,
etc.) including title and dates of service.
33. Are you, or have you been in the last [three] years, a member
of any social clubs,
charities or nonprofit organizations? Yes
No
If yes, list for each: (i) the name of the social club, charity or
nonprofit organization;
(ii) its address; (iii) the date(s) of your membership; and (iv)
service in any governance roles (e.g., board member, committee
member, etc.) including title and dates of service..

EMPLOYMENT HISTORY
34. Are you, or have you ever been, an employee of a broker,
dealer, investment adviser, investment company, municipal
securities dealer, municipal advisor, transfer agent, or
Background Questionnaire Page 10
nationally recognized statistical rating organization? Yes
No
If yes, list for each: (i) the jurisdiction of the entity; (ii) your CRD
number; (iii) the entity’s CRD number; (iv) the entity’s SEC File

Appendix E-14
number; (v) the entity’s CUSIP number; and (vi) any foreign
registration information similar to the foregoing.
35. State your employment activities, beginning with the present
and working backward to the date that you completed high
school and attach a recent copy of your resume or curriculum
vitae.
Employer’s Name/SelfEmployment
Title
Dates of Employment
Supervisor
Title
Dates of Employment
Supervisor
Title
Dates of Employment
Supervisor
Title
Dates of Employment
Supervisor
Employer’s Name/SelfEmployment
Employer’s Street Address
Telephone Number
Title
Dates of Employment
Supervisor

Appendix F-1
UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF NEW YORK
------------------------------x
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
JAMES DAVID O'BRIEN,
Defendant.
------------------------------x
19MC468 (KPF)
November 22, 2019
10:00 a.m.
Before: HON. KATHERINE POLK FAILLA,
District Judge
APPEARANCES
SECURITIES AND EXCHANGE COMMISSION
PAUL G. GIZZI
BY: BENNETT ELLENBOGEN

BY:

HANAMIRIAN LAW FIRM
Attorneys for Defendant BY: JOHN M. HANAMIRIAN
(Case called)
THE DEPUTY CLERK: Please state your name for the record,
beginning with plaintiff.
MR. GIZZI: Paul Gizzi for Securities and Exchange
Commission and with me is Bennett Ellenbogen.
THE COURT: Gentlemen, of the two of you, to whom
should I be directing my questions?
MR. GIZZI: You can direct them to me, your Honor.
THE COURT: Thanks for letting me know.

Appendix F-2
MR. HANAMIRIAN: John Hanamirian, Hanamirian
Law Firm on behalf of respondent, your Honor.
THE COURT: Sir, good morning to you as well. Thank
you so much.
I have the parties' submissions in connection with the
SEC's order to show cause and I have questions for both
sides. Since you are not familiar with me I want to make
clear at the outset, sometimes my questions are in the vein
of tire kicking so, please, do not ascribe all too much
importance to them
because what gets a little bit frustrating is when people
begin by answering, As your Honor recognized... I
recognize a lot of things but I haven't decided anything
just yet.
So, what I would like to know at the outset,
And perhaps I can have agreement between both
sides on this, there are legal standards that both sides
have presented to me and you seem to be in agreement
that the issue on which this whole application pivots is
that of improper purpose or bad faith.
So, Mr. Gizzi, is there anything else on which I should be
focusing with respect to the legal standards here?
It does sound like you are in agreement as to what they
are.
MR. GIZZI: I think that's correct, your Honor. We believe
that the sole challenge that respondent has made here is
his contention that the SEC is acting in bad faith by issuing
a testimony subpoena after having participated in a proffer
with Mr. O'Brien.
THE COURT: Sir, as well in the defendant's opposition,
there is a timeline that is proffered to me regarding events
of interest in the course of the case. Do you dispute the
timeline that was written out for me?
MR. GIZZI: We don't dispute the timeline, although it
would be worth noting that Mr. O'Brien has contended or
has argued that it was well over a year -- well, actually the

Appendix F-3
proffer was in August, the second testimony subpoena was
in May so it was approximately eight-plus months, not well
over a year. But, otherwise, the time we -- there is nothing
else in the timeline that is incorrect.
THE COURT: Let me just confirm with Mr. Hanamirian.
Sir, I think we are in agreement as to what the applicable
law is and our purpose in meeting today is to address the
issue of whether the Commission's request for your client's
testimony amounts to either improper purpose or bad
faith.
Do you agree?
MR. HANAMIRIAN: Kind of. THE COURT: Okay.
MR. HANAMIRIAN: And I say that obviously respectfully,
but I think that the initial argument on our part is that
there is a proffer agreement in existence and that this
conduct, the issuance of a subpoena is a breach of the
purpose of the proffer agreement. So, the reason I say kind
of is that I think, subsumed within the analysis of bad
faith, is whether you have breached an agreement. And so
-- right? I mean, if that's the case, then yes. If the breach
of contract analysis is subsumed within the analysis of bad
faith? Yes.
THE COURT: Why I am asking is at some point I am going
to have to give a decision and it would be better for the
parties if I gave the decision today orally, and if I can, I
will. I was going to refrain from having a lengthy
disposition of the applicable law because I think we are in
agreement as to what it is and the real issue is whether the
facts of this case suggest that it is somehow inappropriate
for the Commission to issue its subpoena.
May we limit the inquiry to that?
MR. HANAMIRIAN: Yes.
THE COURT: Okay. Great. Thank you. Let me talk to
the folks at the front table and then I will turn to you.

Appendix F-4
Mr. Gizzi, I want to understand a couple of things and so
first I want to understand your reliance on the Knopfler
case, and I will ask you when you are speaking with me,
please, if you can grab the microphone slightly to your left
and bring it closer to center, and Mr. Ellenbogen has a
microphone on himself if he needs it. Sir, as I was reading
the case, the language that is in there is the language you
have quoted to me but it is a per curiam decision of about
a page length where the focus seems to be, or the issue
before the district court seems to be whether or not there
needed to be a complete evidentiary hearing or whether it
was enough for the district court to have made decisions on
a summary basis without having a hearing.
So, I guess my question to you is, are you reading,
extrapolating what it should really stand for, even though
the language is in there, is there any reason why I should
find
that that language is somehow limited, by context, to the
question of how much of an evidentiary hearing is needed?
MR. GIZZI: Well, I think Knopfler does say that in order
for there to be an evidentiary hearing, respondent would
need to present a very strong case, a strong factual case for
bad faith on the part of the SEC, technically on the part of
the SEC itself but certainly even as to the staff it would
have to be a very strong case for there to be an evidentiary
hearing. I don't believe we are anywhere near that. All we
have is simply a contention that because the Commission
participated in the August 2018 proffer, issuing the 2019
subpoena was in bad faith and that there is no case that
holds that or says that so we are certainly not in bad faith,
it is merely a contention on the part of respondent but there
is no case law that supports it. The Commission, obviously,
has acted properly in issuing the subpoena throughout.
We participated in the August 2018 proffer, we obtained
an initial understanding of the facts. Now we would like
to have a more detailed, more precise understanding of the
facts which is why we issued a subpoena and the

Appendix F-5
Commission is entitled to issue multiple subpoenas as
Judge Carter ordered in the Stillwell case where the
Commission staff had already taken testimony from the
witness and issued a Wells notice. So, the record there was
even further developed than the record we have here and
so we are clearly within -- the Commission is clearly within
its rights to issue a second subpoena.
THE COURT: Sir, don't sit down just yet. Thank you. I
will be more precise with my questions but I really only
want you to answer the question that I am asking. I
promise I will give you time to give me your arguments. I
know where you are going but really my question was you
are asking me to put a lot of stock in Knopfler for the
proposition that the bad faith showing that needs to be
made is one that is Commission-wide rather than
investigator-specific or team-specific.
Is that not correct?
MR. GIZZI: That's correct.
THE COURT: And so, I appreciate that what you want to
tell me is that there is no bad faith anywhere but
assuming -- assuming -- I were to find it on the part of
anyone, it is your view, sir, that I must find it on the part
of the Commission as a whole before I can find bad faith
sufficient to invalidate the subpoena?
MR. GIZZI: Well, I believe that is what Knopfler says, and
it cites to the LaSalle Supreme Court decision which says
that even if an IRS agent is acting in bad faith in that
instance simply to develop evidence for criminal referral
when they already decided they were going to make a
criminal referral, it would still not matter to be whether
or not the subpoena could be enforced because it would
have to be the bad faith of the IRS because, otherwise, it
would frustrate the enforcement of the tax law. Same
thing here. If the Commission issued its order, its formal
order in bad faith, that would be one thing but even if the
staff acted in bad faith in issuing the subpoena, it still
wouldn't frustrate our ability to enforce the subpoena

Appendix F-6
because otherwise it would frustrate our ability to
investigate whether or not there have been violations of
the securities laws.
THE COURT: Well, I want to understand where we go
from there because it's interesting, it would seem to me,
that there wouldn't be much in the way of punishment to
the Commission if they were allowed to have individual
investigators act in bad faith as long as the Commission
as a whole didn't act in bad faith. So, I guess I'm trying to
understand, and I realize you don't necessarily want to
answer this question, what would constitute bad faith on
the part of the entire Commission?
Here is something I came up with that I am not sure
would qualify but imagine, if you will, that the
Commission
has
a
practice
of
affirmatively
misrepresenting to people the significance or not of the
proffer agreement.
Let's imagine that here and
everywhere they told every proffering interviewee we will
never, ever seek your testimony again, this is it, it is only
pursuant to the proffer agreement -- and then they
consistently try to and then issue subpoenas for
testimony. That would be a Commission-wide example of
bad faith, correct?
MR. GIZZI: I think that's correct, your Honor.
THE COURT: Okay. Let's try this. Let's say the policy
and practice of the Commission was to limit it's
investigation to a proffer conducted pursuant to a proffer
agreement, then no further investigation, and then the
next day a subpoena for testimony. Would that also be
bad faith or at least -- at least am I getting warmer?
MR. GIZZI: Well, okay. So, these are hypothetical
questions.
THE COURT: Of course they are. Yes.
MR. GIZZI: I think that that's troublesome conduct if that
were to be the case.

Appendix F-7
THE COURT: What is the practice of the Commission
with respect to the use of proffer agreements? And I will
ask both sides, I come from the criminal side of the house
where proffer agreements are a coin of the realm, they're
always being used and so it is the rare case, except with
perhaps a witness who has no criminal exposure where I
wasn't using a proffer agreement. Is it the policy of the
Commission to consistently use proffer agreements
whenever interviewing someone or is it something that is
done when there is an interview conducted concurrently
with a criminal investigating agency?
MR. GIZZI: Well, proffer agreements can be used in both
situations and other situations as well. In our papers we
cited to the enforcement manual.
THE COURT: Yes.
MR. GIZZI: And in there, for instance, it explains or it
describes how, as if somebody is interested in cooperating
with the Commission it's often an initial step to have a
proffer with the person to determine whether or not they
can provide valuable cooperation. When the Commission
does participate with an interview with the criminal
authorities, whether it's U.S. Attorney's office or state
criminal authorities, the witnesses often enter into a
proffer agreement with the criminal authorities and most
of the time I would say, also would like a proffer agreement
with the SEC but they don't always want the proffer
agreement with the SEC. And then there may be instances
where it's clear that the criminal investigation seems to
have trailed off but a witness will still rather take, rather
have a proffer agreements because if they are put on the
record they'll take the fifth. And so, in order to find out
what the witness knows, what the witness' story is,
sometimes the staff will get an attorney proffer which
doesn't require a proffer agreement, other times staff will
get a proffer from the witness, but that doesn't stop the
staff from then later putting the witness, getting

Appendix F-8
investigative testimony of the witness so that there is a
clear record of what the witness' story is.
THE COURT: Is it in fact the case that the two subpoenas
required identical information or were largely identical
other than the date?
MR. GIZZI: Well, they required his testimony.
THE COURT: Yes.
MR. GIZZI: Obviously, the state of the investigation was
further along when the second subpoena was issued so
technically they're not requiring the same identical
information, although they both require, just simply
require that he testify.
THE COURT: Is it you or Mr. Ellenbogen who has more
firsthand knowledge of the circumstances of this proffer?
MR. GIZZI: I was not involved in the August 2018 proffer.
THE COURT: May I inquire of Mr. Ellenbogen for a bit?
MR. GIZZI: Certainly.
THE COURT: Mr. Ellenbogen, may inquire of you for a
moment?
MR. ELLENBOGEN: Of course.
THE COURT: Thank you.
Sir, do I understand correctly that it is your
position that you issued a subpoena and then found out
about the proffer and did you find out about the proffer
through Mr. O'Brien's counsel?
MR. ELLENBOGEN: We found out about the proffer
through the U.S. Attorney's office, and then it was at that
time that we were, we had decided that we wanted to
participate, if possible, we agreed to surface in our
investigation at that point. Right around that time Mr.
O'Brien and counsel were not aware that we had this
investigation and it was at the time that he began
discussing proffer with the U.S. Attorney's office that we
wanted – we decided we also wanted to participate.
THE COURT: Which is interesting because, again, in my
experience, it is sometimes the rolls are reversed where
someone has come in and given testimony to the

Appendix F-9
Commission and then they are called in for a proffer and
they did not appreciate that the U.S. Attorney's office was
thinking about it, some might say, waiting in the wings.
So, I have seen plenty of cases on that front, this would be
like the Cordell and the Fiori line of cases but not -- this is
the opposite of what I have usually seen.
Sir, are you the author of the letter of June 7th of last year?
MR. ELLENBOGEN: I believe so. Yes.
THE COURT: Okay, so this is, as I am understanding it,
in relevant part, this letter indicated that if the proffer
were going forward the Commission would be willing to
push off the date of testimony. I presume that's the
testimony sought by the subpoena, yes?
MR. ELLENBOGEN: Yes. That's correct.
THE COURT: But would like to revisit once we have
confirmed the proffer.
Now, that is in fact the language of your letter, in
substance, yes, sir?
MR. ELLENBOGEN: Yes. That's right.
THE COURT: You have cited this to me as sort of a
forewarning to Mr. Hanamirian that you weren't giving up
your right in the future to seek testimony.
Am I correct?
MR. ELLENBOGEN: That's correct.
THE COURT: What is interesting is it's the use of the
word "confirmed the proffer."
It's confirmed as
distinguished from once we have conducted the proffer,
once we've thought about how the proffer was. And so, I
guess what I am asking is, was this issue revisited at any
point before the issuance of the second subpoena?
MR. ELLENBOGEN: Was the issue revisited of having
Mr. O'Brien come in for testimony pursuant to subpoena?
THE COURT: I will ask a more precise question.
MR. ELLENBOGEN: I'm sorry.
THE COURT: No. My doing, sir.
This particular submission suggests that upon
confirmation of the proffer there would be a revisiting of

Appendix F-10
the issue and so I don't -- so, once we have confirmed the
proffer,
that's the relevant language -MR. ELLENBOGEN: I see, yes.
THE COURT: I don't know if that means immediately
after, a month thereafter, eight months thereafter. I don't
know.
I'm trying to figure out what should Mr.
Hanamirian have
intuited from your letter and your use of the word
"confirmed."
MR. ELLENBOGEN: That's a good point, your Honor. I
apologize for not understanding it.
THE COURT: No, no. I asked a better question this MR.
ELLENBOGEN: Well, okay. Well, what was intended by
that was we were not -- we still may consider taking Mr.
O'Brien's testimony subsequent to the proffer as we had
just surfaced and our investigation was still at its early
stages and that we would revisit the idea of a potential
testimony at some point at a later date. That's all that that
meant.
THE COURT: At or about the time of the proffer -- no, I
will back up. At our about the time of the confirmation of
the proffer did you have any discussions with Mr.
Hanamirian regarding the revisiting of this issue?
MR. ELLENBOGEN: No. I don't believe we did.
THE COURT: At or about the time of the proffer itself did
you have any conversations with Mr. Hanamirian about
revisiting the issue?
MR. ELLENBOGEN: No. Not at that time. We did not.
THE COURT: At any point before you issued the second
subpoena did you have conversations with Mr.
Hanamirian about revisiting the issue?
MR. ELLENBOGEN: I know we had followup with
Mr. Hanamirian about producing documents -THE COURT: Sorry. Mr. Hanamirian lacks a poker face.
MR. ELLENBOGEN: Too bad I'm not at the poker table.
In this situation we had conversations pursuant to

Appendix F-11
producing additional documents that they had yet to
produce pursuant to the subpoena but I don't believe we
had additional
conversation about when, that the Commission was still
interested in taking his testimony until we reached the
decision that we wanted to take his testimony pursuant to
a subpoena.
THE COURT: When he was producing documents after
the proffer, that wasn't pursuant to any request made at
the proffer, you are saying that is pursuant to the first
subpoena?
MR. ELLENBOGEN: I think it was pursuant to both. We
had follow up from the proffer as well where some
documents were referred to that I believe either we -- the
SEC or the
U.S. Attorney's office -- referred to that Mr. O'Brien wasn't
familiar with and I asked them to follow up and see if he
had such documents. Arguably, they were responsive both
to what happened at the proffer but also to the
investigative testimony and on several occasions I had
asked Mr. O'Brien to confirm, in writing, that they had
produced all documents in their possession, custody, and
control that were responsive to the subpoena and I was
having some difficulty getting that confirmation from
them.
THE COURT: And therefore what? You just continued to
reach out to him to try and get that confirmation?
MR. ELLENBOGEN: Yes, correct.
THE COURT: Or those documents?
MR. ELLENBOGEN: Yes. We did receive a response that
basically said that they had produced all documents they
identified as responsive.
THE COURT: I may be asking you questions now that
because of the nature of your investigation you may be
limited in your ability to answer and I'm not trying to probe
into things I can't.
MR. ELLENBOGEN: Okay.

Appendix F-12
THE COURT: So, don't be uncomfortable about saying I
can't answer that question.
MR. ELLENBOGEN: Pardon me if I confer with Mr. Gizzi
before I answer some of these questions as well.
THE COURT: That is no problem. I don't want to trip you
up, that's not my intention.
MR. ELLENBOGEN: Thank you, your Honor.
THE COURT: At the time of the proffer you indicated -- at
the time you issued the subpoena you indicated that you
had just surfaced, I believe that was the term you had
used.
MR. ELLENBOGEN: Yes, your Honor. Yes.
THE COURT: Explaining that you had now made known
to Mr. O'Brien and others that there was investigation into
American River.
THE COURT: Bankshare is one word, not American
River. So, you surfaced; fair to say you were at the early
stage of that investigation.
MR. ELLENBOGEN: That is fair to say.
THE COURT: Is there some power that you received from
the Commission to begin the investigation?
MR. ELLENBOGEN: Yes. We received a formal order of
investigation.
THE COURT: And when, approximately, did you receive
that?
MR. ELLENBOGEN: That is a good question. Bear with
me for one moment. I believe it was in January of 2018.
THE COURT: All right. So you are surfacing in or about
April or May?
MR. ELLENBOGEN: That's correct.
THE COURT: And this proffer is in -MR. ELLENBOGEN: February 17, 2017. I'm sorry I gave
the wrong year as well as the month. February 2017 was
the formal -THE COURT: So this investigation had been going on for
nine and a year when you issued the request for testimony?

Appendix F-13
MR. ELLENBOGEN: That's correct.
THE COURT: Okay. Understood. What did you develop
after the proffer that you had not developed in the year
plus of investigation prior? Now, to be clear, I would
imagine that you had more than one investigation going on
at the same time and I would not have expected every
moment of every working day to have been spent
developing this investigation, although if it were I would
be interested but I really want to understand, you are
asking me or you are representing to me that the evidence
changed, it increased, you had different information. What
changed? What did you develop that you didn't have at the
time of the proffer?
MR. ELLENBOGEN: What I can tell you is that the staff
reviewed thousands upon thousands of trades of Mr.
O'Brien thatwas ongoing from earlier stages all the way
through the profferand subsequent to the proffer. We
reached a much more detailed, granular understanding of
the method of the coordinated trading that Mr. O'Brien
undertook. We have specific examples of the types of
trades and methods of how he traded. We obtained
additional materials -- I am just being a little cautious
about what I want to say.
THE COURT: That's fine. Talk to Mr. Gizzi. That's why
he is there.
(Counsel conferring)
MR. ELLENBOGEN: Among other things, we obtained
internal communications from the brokerage firms that
discussed Mr. O'Brien's tradings and we would like to
present that to
Mr. O'Brien to get his reaction to get his response to that.
We would like to explore -- we learned more details about
other parties that we don't believe are related to Mr.
O'Brien but we are not sure, that engaged in similar,
coordinated trading in New Jersey. What we were aware
of is that there is more information that we have, and we
have more records from Mr. O'Brien, for example's phone

Appendix F-14
records that we can explore his communications with other
people about either their knowledge of each other's trades.
Let's put it that way.
I think those are some of the major topics.
THE COURT: Did you meet with other witnesses?
MR. ELLENBOGEN: We have not met with other
witnesses.
THE COURT: Other than Mr. O'Brien there is no other
witness with whom you met?
MR. ELLENBOGEN: There is no other witness with
whom we have met. This really relates to Mr. O'Brien's
trading and the specific intent behind his trades and what
he was thinking when he made these trades.
THE COURT: Let me please return to Mr. Gizzi, unless
you want to start answering legal questions.
MR. ELLENBOGEN: I will let Mr. Gizzi take care of That.
THE COURT: Thank you.
Mr. Gizzi, it is the position of Mr. Hanamirian that the
Commission breached its proffer agreement with the
issuance of this second subpoena. I know you are familiar
with the text of your own proffer agreement. I would like
to understand from you, I am imagining you don't agree
but I would like to know why you don't agree.
MR. GIZZI: Primarily, your Honor, because the
agreement is very express on its face that it only applies to
the statements made at the specific meeting identified in
the agreement and it is -- it is not plausible that, as Mr.
O'Brien argues, that the proffer agreement did not expire
when the proffer was over. That was -- it applies to the
statements made there but it does not apply to any other
statements at any other time. And so -THE COURT: But I thought I understood the language of
it to be that the statements that were received from Mr.
O'Brien during the proffer could not be used against him,
they could be used to develop leads. And that's what I
think I am focusing on. That's why I asked you earlier the
hypothetical about a situation where the Commission did

Appendix F-15
the proffer, no additional investigation, and then tried to
obtain testimony by subpoena because it would seem to me
that that might be a breach of the spirit of not the letter of
the proffer agreement if you have done not one other thing
and you have gotten this information with the promise that
it would be used for leads and then you immediately go
around and ask for testimony. Perhaps you may disagree
with me, and I welcome your disagreement if you want to
explain it, but here I am trying to understand what is
permissible in terms of the use of the proffer statements?
MR. GIZZI: Well, just as to your hypothetical, I believe it
was conditioned on the notion that we said we will never
ask, issue a subpoena for your testimony in the future and
then after the proffer we go ahead and do that.
THE COURT: That was the first hypo. There was the
second hypo which was the policy of the Commission to
issue, to take, to have proffers and then the next day turn
around and seek testimony without doing any other
investigation.
So, perhaps I should make that more clear.
MR. GIZZI: And I don't -- listen. If it is the policy and it's
a thought through policy it sounds a little bit -- it doesn't
sound like it's a well-founded policy and I don't believe the
agency would have ever such a policy but as to the proffer
agreement it is very clear. It is very clear that it applies
to one meeting. So, if we were to interview him next day
and in fact his client is willing -- Mr. O'Brien is willing to
appear for an interview, he just wants the proffer
agreement to continue to apply. So, there is really no
dispute that we should be entitled to speak to him in more
detail about the subjects that we covered at the proffer
and about any additional subjects that were not covered
either because we didn't have enough time or because we
didn't appreciate the conduct well enough at the time.
When we had the proffer that was our first time speaking
directly to Mr. O'Brien about his trading. It's a very
complex type of trading, it's a lot of information to get your

Appendix F-16
arms around and that was a first shot at understanding
what the conduct was.
So, yes, we can't use any statements he made against him
if we were to -- if the Commission were to bring some type
of enforcement proceeding against him, but it does not
prohibit us -- the proffer agreement does not prohibit the
Commission from subsequently issuing a testimony
subpoena the same way
having issued one testimony subpoena does not stop the
Commission from issuing a subsequent testimony
subpoena.
THE COURT: I see. Because what you are saying is, and
this is what you want to clarify for me, this is not a
situation where you are using the information he has
against
him, you are asking for the information to be provided in
another context in which these protections do not adhere.
MR. GIZZI: The information plus much more detailed
information.
THE COURT: I think I understand that.
Could you please respond to Mr. Hanamirian's argument
that were I to accept your arguments today, there would
be a chilling effect on the use of proffers generally because
individuals who aren't given assurances that there will
never be testimony would be foolish, indeed, to submit to
a proffer if there was going to be a testimonial subpoena
just a few months later?
MR. GIZZI: Yes, but I don't believe that that's something
that is for the Court to consider. That's the Agency's
decision. If there is a chilling effect, then the agency has
to live with that and perhaps proffers will be used less
frequently, but that's a decision for the Agency to make.
THE COURT: I see. So you are saying if there were a
chilling effect that might be unfortunate but it is not bad
faith.
MR. GIZZI: That's correct, your Honor.

Appendix F-17
THE COURT: I think I understand that argument. One
moment, please, sir.
(Pause)
THE COURT: Do you think Mr. O'Brien had or could
reasonably have had some expectation that there would
be no subpoena for his testimony or no interest on the
Commission's
part in obtaining his testimony without the protections of
the proffer agreement?
MR. GIZZI: I don't believe so, your Honor. The agreement
could not be clearer that it only applies to the statements
made at that date and when we did issue the subpoena,
the second testimony subpoena in May of this year, Mr.
Hanamirian informed us that his client, that he was
authorized by his client to accept service of the subpoena
and we set a date for the testimony. And so, it was only
after time passed by that he, Mr. Hanamirian contacted
the staff and asked whether or not the terms of the proffer
agreement would continue to apply and we promptly
informed him, no, it would not.
So, even Mr. O'Brien, when he received the subpoena
initially, the second subpoena initially, understood that it
was completely proper and that he should testify. He has
used this to try to secure another proffer agreement but
the staff is simply not willing to do so. And that is his
right in response to receiving a subpoena. He can refuse
to comply and force us to seek a court order to direct him
to comply.
THE COURT: And that's why we are here, yes?
MR. GIZZI: But the staff cannot -- the Commission cannot
be forced to enter into a proffer agreement that it does not
wish to enter into.
THE COURT: Thank you very much. Let me hear from
Mr. Hanamirian.
Mr. Hanamirian, before I ask you some questions are
there any things that you would like to speak about that

Appendix F-18
you have heard me discussing with the Commission's
attorneys?
MR. HANAMIRIAN: Just a few. I think just factually I
know you have the record. So, in each instance in
providing documentation subsequent to the proffer each of
the covering letters says that these documents are
submitted to you pursuant to the terms
of the proffer. And so, they weren't submitted pursuant
to the terms of the subpoena.
THE COURT: Well, these are the -- excuse me, sir, these
are the materials that you submitted to the Commission.
MR. HANAMIRIAN: Yes, but even after the proffer
session itself I said these are submitted as follow up and
pursuant to the terms of the proffer, not in response to the
subpoena.
THE COURT: I see. But does that foreclose them from
now issuing the subpoena? That's part that I'm not -- it is
not obvious to me that your reservation of rights with
respect
to documents that you produced forecloses them from
issuing the subpoena.
MR. HANAMIRIAN: I don't think that they're foreclosed
from issuing the subpoena and I think that the way that
the arguments are couched creates a detour. And this is
what I was saying in the outset, is we have subsumed in
the analysis of bad faith is a contractual bad faith
analysis. And so, subpoena 1 and subpoena 2 are fine
standing alone but that ignoring the existence of the
proffer is not fine. So, the breach of contract or breach of
agreement analysis has to come into play in the
appropriateness of the issuance of subpoena 2 and the
enforcement or furtherance of subpoena 1. And so, the
proffer agreement is executed and advances in response
to the issuance of a subpoena. That's how it goes.
And so in this instance, in particular, the United States
Attorney's office and the Federal Bureau of Investigation
visited my client and two days later I got a call from the

Appendix F-19
SEC. So, the assistant United States said, okay, I am
assuming that you guys all know that this is each going –
that you are all going together. And so I then began a
dialogue with the Assistant United States Attorney and a
parallel dialogue with the SEC for the negotiation and the
implementation of the proffer agreement.
THE COURT: But you are not suggesting -- I can exclude
the involvement of the U.S. Attorney's office.
MR. HANAMIRIAN: Yes.
THE COURT: Whatever they did has nothing to do with
this. What you are saying is that the fact remains that for
whatever reason, the Commission elected to meet with
your client pursuant to a proffer agreement and having
done that, they can't walk away from it now.
MR. HANAMIRIAN: No. That's exactly right. That's
exactly the argument. And then I -- you know, if you take
the benefit of the substance of the proffer agreement and
then say, okay, well, systematically or institutionally on
the back end, well, we will have to deal with that showing
the fact you are both the breaching party and the
remediating party. Right?
So, you can't really do it that way. So, either you have
accepted the benefits of the proffer, you engage in the
proffer session and you accept the testimony under the
terms of the proffer agreement but you can't then turn
around and say, well, institutionally and SEC-wide we
have changed our mind and this may have a chilling effect
on the balance of proffer agreements in the entirety of the
United States but, you know, in this instance this is
important enough that we are going to take that risk.
THE COURT: I am pretty sure Mr. Gizzi is not saying
that. I think what he is saying is if counsel understand
that abiding by or reading the proffer agreements as we
do correctly -- and I am not saying it is correct or not, we
will talk about that later -- but if our interpretation is
correct and our correct interpretation yields folks to think
twice about meeting with the Commission, sobeit. They're

Appendix F-20
saying nonetheless they haven't violated the proffer
agreement because, to them, the proffer agreement does
not foreclose them from asking for the same stuff without
the protections of the proffer agreement.
So, let's talk about that.
MR. HANAMIRIAN: It seems like -THE COURT: Get your thought out and I will ask my
question.
MR. HANAMIRIAN: It seems exactly the opposite. The
proffer agreement does foreclose you from asking about
the same stuff. In fairness, you can follow it up, and we
did. And you can ask follow-up questions from the proffer
and as long as we all understand that it is a part and
parcel to that agreement. Okay. But, whether the follow
up takes place two days or 30 days after or six months
after, I mean, it is still follow up to the same session, it is
not -- we aren't somehow sanitized by the passage of time.
The passage of time is not something within the
respondent's control. The government controls time.
THE COURT: Let me push back on that a little bit based
on the longer conversation I was having with Mr. Gizzi.
What Mr. Gizzi was trying to explain to me, I believe -and he will tell me if I am wrong -- is that the proffer
agreement is the proffer agreement and what they can't
do, for example, is take the statements that were made
pursuant to the proffer and broadcast them to the world
or to use them in a complaint against your client. They
can't do that. I don't think they're trying to do that but
what they're saying is that does not mean that it suddenly
becomes a more transactional immunity or use immunity
that forecloses them from ever asking your clients the
same questions again without the protections of the
proffer agreement -- wait -- they're also saying that the
reason they're doing it now is not because of some decision
on the part of the Commission to hoodwink you into
appearing for a proffer and then not appearing, having the
protections of the proffer and then not. They're saying we

Appendix F-21
have now had eight months to actually get our ducks in a
row, we want to ask new questions. Some of them may
overlap areas we have discussed but we want to ask new
questions.
So, that's what they're saying.
We are acting in
accordance with the proffer. The proffer prevents us from
using this material. If doesn't prevent us from asking the
questions a second time.
Do you disagree?
MR. HANAMIRIAN: I do, because the use of the
materials in the context of a testimonial -- in the
testimonial context pursuant to the subpoena is using it
against us.
THE COURT: All right.
MR. HANAMIRIAN:
Because we don't have the
protection of the proffer. That's the point, it is an
immunity. And so, the point is to provide it to them in
response and to give them an understanding of what took
place and they accept that. So, if you accept that
information coming from us on a voluntary basis, you
know that it's imposing on our Fifth Amendment rights,
it is imposing on other rights and you accept that.
That's a serious thing.
THE COURT: But are you then suggesting they could
never, not ever, subpoena your client for testimony?
MR. HANAMIRIAN: They can't subpoena my client for
testimony against himself with respect to the subject
matter of the proffer. So, that's why I have people come
to the proffer and take detailed notes about what was
discussed because we can't transcribe them and so we
have people who identify from -- that's what we do. We
take detailed notes so we know the subject matter, and so
that if there is a subsequent deviation -- but, quite
candidly, in 31 years I haven't had anybody deviate from
a proffer agreement.
THE COURT: This is first time you have had this issue?

Appendix F-22
MR. HANAMIRIAN: Yeah. And I think given the case
law I might -- I mean it is not -- it is unique to the body of
law as well. In particular I mean this circumstance where
you have subpoena 1, proffer subpoena 2, and even
instances of attempts to compel testimony after the fact.
Nobody breaches these agreements.
THE COURT: Well, I am not necessarily agreeing that
this is a breach of the agreement. The fact is they told you
before your client showed up that they hadn't made a
decision with respect to testimony.
MR. HANAMIRIAN: No. He said to me that once they
confirmed the proffer -- meaning his proffer and we did –
they were done.
THE COURT: No, I didn't say that. That's not what the
letter said. I know you are trying to make an argument
out of the questions I was making to him but that is not
in fact what the letter said.
MR. HANAMIRIAN: Well then maybe it is testimony on
my part. My impression of it, your Honor, was that –
obviously we are revisiting whether, and whether we
enter into a proffer or not and so it is an either or. It
wasn't an, oh okay then, afterwards. How would I have
assured my client that this process was, quote unquote,
safe for providing testimony if the subpoena remained out
in effect and say, okay, you can come back and be
compelled to testify just as you have in the proffer session.
And you say, well, what's the point of the proffer?
There is no point in having a proffer in that situation
unless you just want to go forward and somehow just talk
in that context and say, well, you know, you have got the
wrong person, it is a case of misidentification. But that's
not what we have here. This is an investigation that was
a year old so they knew who he was. And I didn't provide
them with documentation in response to the proffer or in
the context of that. It was all third-party documentation
and so they have that or they had access to it. So, there
is nothing new.

Appendix F-23
THE COURT: But in none of the submissions that I have
seen, none of the written materials do I see Mr.
Ellenbogen foreswearing testimony. What he says is we
are willing to push the date of testimony but that doesn't
mean that they weren't going to have it. And I don't see
anything in which he said, in writing, that having the
proffer would satisfy their request for testimony forever
and that they would never come back on that. Why would
they do that? Why would they -- I am just -- you are saying
to me, and I understand why you are saying this -- that
for someone in your position, you wouldn't advise your
client to go to a proffer if there was a possibility that they
could come back and seek testimony but why would they
participate in a proofer if it foreclosed them from ever
asking for your client's testimony? To that end, the proffer
was initiated by the U.S. Attorney's office. Are you
suggesting that the USAO's decision to have a proffer
foreclosed the Commission from requesting testimony?
No. It is just the fact that they showed up.
MR. HANAMIRIAN: Because the Commission executed
their own proffer. So, we have a double layer of proffer
agreements.
So, this wasn't an afterthought, this was a detailed
analysis and a dialogue. And so, right? I mean, they can
choose not to participate in the proffer.
THE COURT: You each could.
MR. HANAMIRIAN: Yes.
THE COURT: You each could.
MR. HANAMIRIAN: Yes.
THE COURT: But my question is who told you that they
were never going to seek his testimony without the
protections of the proffer agreement? Who told you that?
MR. HANAMIRIAN: The proffer agreement itself tells
me that.
THE COURT: But it doesn't tell me that.

Appendix F-24
MR. HANAMIRIAN: Well, it says that they're not going
to use the testimony against him in any context except A,
B, C, D, and E.
THE COURT: All right. Well, now I will have Mr.
Ellenbogen give me chapter and verse of what happened
after your proffer. You are saying, what, they can't ask
questions about this now that they have an understanding
they didn't have beforehand?
MR. HANAMIRIAN: You can't take the substance of the
proffer and then use it against him in a sworn testimony
-THE COURT: He is not saying that that's what
happened. He is saying afterwards he got the trades that
he didn't look at prior to the proffer, he has got the better
understanding of the nature of the trading, he has got
additional material including communications from the
broker-dealer. Can he ask about that?
MR. HANAMIRIAN: I found it to be a vague response,
your Honor. I don't mean interrogatorily with respect to
Mr. Ellenbogen.
THE COURT: It came out that way, but okay. Go on.
MR. HANAMIRIAN: He said in response to your question
and he is saying that, well, you know, we had additional
time to review the documentation and whatever else but
in response to you again he said no other witnesses were
interviewed, no additional third-party documentation
from any other source was obtained.
THE COURT: No. That's not what he said.
MR. HANAMIRIAN: Okay, but no other witnesses.
THE COURT: That's what he said.
MR. HANAMIRIAN: So it all has to have come from us.
THE COURT: No.
MR. HANAMIRIAN: Which was made -THE COURT: Sir, he just said to me he got additional
third-party documentation. I will ask you, please, not to
misstate what he said to me.

Appendix F-25
MR. HANAMIRIAN:
No, no.
That's what I
misunderstood then. No, that's good.
THE COURT: He said he didn't interview anybody else
because perhaps this a one-man operation, I have no idea,
but he said he did got additional material including
internal
communications from the brokerage firm and there were
other parties that may or may not have been involved in
coordinated trading who may or may not know your client.
So, that's what they have that they didn't have at the time
of the proffer.
MR. HANAMIRIAN: Right. But the idea is if it is an
investigative tool -- if their use of the proffer agreement is
an investigative tool it is not an investigative tool as
against the person offering the proffer, it is an
investigative tool vis-à-vis third-parties that's what it
says. So, if you
are going to use it to investigate us then you shouldn't be
in the proffer because it is too soon in your case. That's
not my fault.
THE COURT: I see. What else would you like me to know,
sir?
MR. HANAMIRIAN: You have made all the arguments,
your Honor.
THE COURT: No, no, no. I want to make sure I have all
of your arguments, sir.
MR. HANAMIRIAN:
I was just at least initially
concerned with respect to the analysis of bad faith in going
down that path but it seems clear that the existence of the
proffer and the intervening proffer agreement as between
subpoena 1 and subpoena 2 is accounted for in this
dialogue and so I am satisfied with that. It really is a
matter of criminal defense practice. I don't know how you
go forward -- you have to just invalidate the proffer
process entirely if this is the case.
THE COURT: Okay. Let me please hear from Mr. Gizzi.
MR. HANAMIRIAN: Thank you.

Appendix F-26
THE COURT: Mr. Gizzi, the arguments made by your
adversary are -- in the parlance of the Failla chambers –
not crazy. How could he have known that you were going
to come back and then seek his testimony without the
protections of the proffer agreement? He thought he got a
great deal. Why didn't he get that great deal? I mean,
look. I wouldn't have done the proffer in the first instance
but that's just from where I come from. He did it and
maybe it was too soon and maybe you should have
absented yourself from it, but you didn't. Why should his
client not be forced to submit to a subpoena?
MR. GIZZI: Well, your Honor, the proffer agreement itself
does contemplate that there will subsequent testimony
because it says that the Commission can use the
statements he makes at the proffer against him if he
testifies subsequently in any proceeding and his testimony
is inconsistent.
THE COURT: But when I read that I thought I
understood that to be if there were a trial or if there were
a hearing where he was testifying. I'm not sure I
understood that to encompass the situation where you
subpoenaed him again for his testimony.
MR. GIZZI: Well, certainly, right, it would if there were a
trial. If we proceed with a litigation against him at his
deposition but it also, it says in any subsequent testimony
so it's -- it is implicit that it could be investigative
testimony in the same investigation or different SEC
investigation, and again, the proffer agreement is just
very clear that it only applies to the statements made and
there is nothing in there that says the SEC will not seek
further information from you, will not subpoena you. It
just doesn't say anything like that. So, for Mr. O'Brien to
believe that it's there, that it says that, it is just -- it
doesn't make any sense.
Mr. O'Brien is trying to avoid having to answer questions
in a format that can actually be used.

Appendix F-27
THE COURT: Absolutely right and we can all stipulate
to that. He thought he snookered you into having his
statements subjected to the proffer agreement but I don't
know someone is going to come out of this feel like they've
misread something but he thought he had managed to get
a great, great deal for himself.
MR. GIZZI: I don't think Mr. O'Brien misread anything.
I think the Court used the term "snookered" and that's
what he is trying to do, he is trying to prevent the SEC
from completing its investigation in this matter and
concocting an argument that the staff is acting in bad faith
and that the proffer agreement prohibits the staff from
later seeking investigative testimony.
THE COURT: Have you ever had another case in which
you were involved in which you had a witness make
statements pursuant to a proffer agreement and then
thereafter sought their testimony by subpoena?
MR. GIZZI: Well, I personally have not, but.
THE COURT: Okay. Can you find me someone in your
organization who has?
MR. GIZZI: Yes. So, for instance in a case in the New
York office there were proffers with two witnesses, as an
example. Meanwhile, somebody was charged criminally.
There was an SEC enforcement proceeding brought
against the entity that was involved and then the staff
subsequently subpoenaed the two witnesses and took
their testimony.
THE COURT: One of whom was charged criminally.
MR. GIZZI: No, no, no. I am saying somebody in the
related investigation was already under criminal charges.
THE COURT: Let me please make sure I understand
what you are recounting to me.
There was an
investigation in the New York office. There was witness
testimony taken pursuant to proffer agreements or there
were meetings held pursuant to proffer agreements.
Thereafter, someone other than those witnesses was
charged criminally.

Appendix F-28
MR. GIZZI: Correct, your Honor.
THE COURT: Thereafter, the Commission brought an
enforcement action and sought their testimony again, this
time.
MR. GIZZI: No.
THE COURT: No? Okay.
MR. GIZZI: So, an SEC case was brought against the
entity that was involved.
THE COURT: Yes.
MR. GIZZI: The investigation was continuing. The two
witnesses were brought in to the New York office and gave
sworn testimony under oath in the investigation.
So, that's before even any litigation was brought against
those individuals or other individuals and they appeared
and testified, and I think the reason that there hasn't been
a prior case is because I don't think -- I don't think anyone
else would take this position.
THE COURT: Don't you think Mr. O'Brien figured he was
not going to be subject to a subpoena for his testimony
after completing the proffers?
MR. GIZZI: No. I don't see how he could have thought
that.
THE COURT: It would not have been reasonable for him
to have thought that.
MR. GIZZI: I don't think so.
THE COURT: I am derailing you. Let me continue.
MR. GIZZI: Simply, I was going to say simply because
the agreement, he was under subpoena, the agreement
by its terms only applies to that meeting. When we
subsequently subpoenaed him a second time he initially
scheduled it, he made arrangements to appear, and then
it was later that he decided let me try to back my way
into a proffer agreement again.
THE COURT: Well, he would say he always was
planning on backing his way into that proffer agreement,
but okay.

Appendix F-29
I think it was always the intent of Mr. O'Brien to raise
the proffer agreement so I don't think he -- I don't think
he went into this and suddenly realized at the eleventh
hour that he should do it. Whether he is doing it correctly
or not -- I have no evidence suggesting that he waited to
tell you that. I mean, he waited as a matter of time but
I don't think that was strategic. I think he wanted
confirmation that you were accepting his argument.
MR. GIZZI: But that I submit, your Honor, would have
been something that it would have been brought up
immediately rather than saying, okay, here is the date
I'm available for testimony when, incidentally, when it is
testimony at the SEC's office not at the U.S. Attorney's
office it's, yes, I can accept testimony, I'm not available
that date, here is the date I'm available, and then a
month goes by, oh, I just want to confirm that it is
pursuant to the proffer agreement which, in the proffer
agreement again, your Honor, it says explicitly that it
only applies to the August 21, 2018 proffer, not to any
other statement made at any other time or in any other
form.
THE COURT: Just one moment, please, sir.
(pause)
THE COURT: Yes. Please, continue.
MR. GIZZI: I have nothing further.
THE COURT: Mr. Ellenbogen, you look like you have an
unspoken argument.
MR. ELLENBOGEN: I just wasn't sure if Mr. Gizzi was
clear that when I contacted Mr. Hanamirian's office and
asked if they would accept service of the second subpoena
they responded they would accept service of the subpoena
and then I sent the subpoena, they accepted service of the
subpoena, and it wasn't until we were almost at the date
for the testimony that Mr. Hanamirian first made his
arguments.
I just wanted to make sure that that was clear.
THE COURT: It was not clear. All right.

Appendix F-30
Mr. Hanamirian, anything else that I haven't covered
with you, sir?
MR. HANAMIRIAN: No, your Honor. Thank you.
THE COURT: What I am going to do, I'm going ask for
your patience. I am going to step off the bench for a few
minutes. I will see if I can give you a decision. If I cannot,
I will come back quite promptly.
Thank you very much.
(recess)
THE COURT: Thank you very much for your patience
and, please, be seated.
Counsel, friends, I do not have a decision to give you
today and let me explain exactly where I am because I
am nothing if not transparent with you. The issue, to me,
devolves to whether there is bad faith on the part of the
Commission in light of Knopfler, in light of LaSalle, and
yet I am being told by Mr. Gizzi that there may be, in
fact, a policy at the Commission that interprets the
proffer agreement in the way it is interpreted here. I am
not giving a final read of the proffer agreement, I want
that to be clear and I am trying, as I talked to you, to
disaggregate my own use of proffer agreements in my
past as a criminal prosecutor from something different
which is what is here. But it would seem to me that an
argument could be made that to the extent that Mr.
O'Brien were questioned and the questions differed in
any degree from the questions he was asked at the
original proffer, that that would be permissible because if
you have developed new information with or without his
assistance, there is nothing in this agreement that would
appear to forbid you from asking these new, better, more
detailed, more granular questions. It is not as clear to
me that you would be permitted to ask the identical
questions that were asked of him during the proffer and
I am having a little bit more difficulty accepting Mr.
Gizzi's argument that this is a -- it is a protection from

Appendix F-31
one day but that it doesn't preclude the Commission from
asking the identical questions the next day.
So, if the Commission were to tell me today that every
question that would be asked at this testimony would be,
in some degree, different as a result of the investigative
work, then I suppose we could go forward. I don't know
that you can make that representation. I'm not sure you
want to. I think I would like to have from the
Commission, if it would be so kind, some additional
information about instances in which any office has done
what has happened here. Mr. Hanamirian said to me in
31 years this is the first time he has seen it. I have not
seen it but I have just not but that doesn't mean that it
doesn't happen regularly. I would be interested. So, I
don't think I need to decide today, the world will not end
if I don't decide today, and I want to give you a correct
answer rather than a timely answer but, Mr. Gizzi, how
much time would it take for you to sort of ask around, see
what information is out there, and to get to me
information about instances in which the Commission
has done exactly what is discussed here?
MR. GIZZI: Certainly we can make the request this
afternoon but I am not sure how much time it would take
because of the upcoming holiday.
THE COURT: Exactly.
MR. GIZZI: And the thought that a lot of people will be
out for part, if not all of, next week.
THE COURT: Yes; people who have better schedules than
I do.
Is there a time sensitivity to this, sir? I mean, there may
have been at one point but can it be? This doesn't have to
be decided today, correct?
MR. GIZZI: No. That's correct. That's correct, yes.
THE COURT: Okay.
MR. GIZZI: I was just trying to think about the statute of
limitations. We have plenty of time.
THE COURT: Okay. What about the 6th of December?

Appendix F-32
MR. GIZZI: That Friday?
THE COURT: That is two weeks from now.
MR. GIZZI: Okay. That's fine. That's fine, your Honor.
THE COURT: If you need more I will give you more time.
MR. GIZZI: No. I think that would be more than enough.
I just didn't want to have to try to get an answer before
Thanksgiving.
THE COURT: Oh. I didn't want to ask you to do that.
That's fine.
Mr. Hanamirian, you will sit tight while we get this
information, correct?
MR. HANAMIRIAN: Yes, your Honor. Thank you.
THE COURT: Great. If it is appropriate, I will have a
telephonic conference next time so I don't trouble you all
to come in.
Mr. Hanamirian, something else you would like me to
know?
MR. HANAMIRIAN: No, your Honor.
THE COURT: Thank you.
Mr. Gizzi, something else you would like me to know?
MR. GIZZI: I would note that if that were the case, if the
case were that the Commission would not be able to take
testimony of the same subjects after agreeing to a proffer,
that the Commission would not be entering into proffer
agreements anymore with witnesses.
THE COURT: I understand, and that is an argument you
can make to me. I am just looking at your proffer agreement
and I want to understand what it means when it says that
the statements will not be used against you. If he says -- if
you ask the same questions and he gives the same answers,
are not his statements being used against him? You would
tell me no.
And that's what I want to think about a little bit more than
I have. I focused a lot on the increase to your base of
knowledge that prompted the request for the second
subpoena and that's what I have been focusing on and do I
think having a second subpoena is bad faith? No. But, I

Appendix F-33
just want to make sure that there is no violation of your
proffer agreement and I am also thinking to the extent that
there is an ambiguity -- and I'm not saying there is -- Mr.
Hanamirian will thoughtfully tell me that it would be
construed against the Commission.
Again, I'm not saying it is, I just want to look at it more. So,
whatever you want to tell me by the 6th of December,
please, tell me.
Mr. Hanamirian, if there is something you want to tell
me by the 6th of December, please, tell me. I will listen
to you. I am not saying you have to, I just want to hear
-- this is new to me, too, and I want to make sure I am
looking at it correctly.
MR. HANAMIRIAN: Great. Thank you, your Honor.
THE COURT: Thank you very much. I thank you for
coming in today. Excuse me for not being able to give
you a decision but, again, please take correct over
timely. We are adjourned.
Thank you. We are adjourned.

